APPLICATION AND
SOLICITATION
DISCLOSURE

PLATINUM AWARDS/TRADITIONAL RATE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Platinum Awards

0.00%

Introductory APR for 12 months from account opening.

7.95% to 12.95%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Traditional

0.00%

Introductory APR for 12 months from account opening.

6.95% to 17.95%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

APR for Cash Advances

Platinum Awards
7.95% to 12.95% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Traditional
6.95% to 17.95% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Awards
7.95% to 12.95% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Traditional
6.95% to 17.95% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03900712-MXC10-P-1-091219 (MXC101-E)

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
None
None
None
None
None
None
None
1.00% of each transaction in U.S. dollars
None
Up to $27.00
Up to $10.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for purchases will apply to transactions posted to your account during the first 12 months following
the opening of your account.
Loss of Introductory APR:
We may end your Introductory APR for purchases and apply the prevailing non-introductory APR if you are 60 days late in
making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: November 1, 2019
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Awards and Traditional are secured credit cards. Credit extended under
this credit card account is secured by various personal property and money including, but not limited to: (a) any
goods you purchase with this account, (b) any shares you specifically pledge as collateral for this account on a
separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union
excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Returned Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03900712-MXC10-P-1-091219 (MXC101-E)

